fHntteb States? Court of Appeal*
Jfor tfje Ctgfjtf) Circuit

No. 20-1386

Ecclesiastical Denzel Washington
Plaintiff - Appellant
v.
Benjamin Brooke, et al.
Defendants - Appellees

Appeal from United States District Court
for the Western District of Missouri - St. Joseph

Submitted: September 24, 2020
Filed: October 2, 2020
[Unpublished]

Before LOKEN, SHEPHERD, and STRAS, Circuit Judges.

PER CURIAM.
Missouri inmate Ecclesiastical Washington appeals the district court’s1 grant
of summary judgment dismissing his 42 U.S.C. § 1983 damage claims alleging that
'The Honorable Nanette K. Laughrey, United States District Judge for the
Western District of Missouri.

Appellate Case: 20-1386

Page: 1

Date Filed: 10/02/2020 Entry ID: 4961766

numerous Missouri correction officers were deliberately indifferent to his ongoing
exposure to secondhand tobacco smoke, failed to protect Washington from assaults
by other inmates displeased with his successful lawsuit to ban the sale and
consumption of tobacco products, and failed to provide appropriate medical and
dental care after the assaults. After dismissing many claims without prejudice for
failure to exhaust, the district court granted the remaining defendants summary
judgment dismissing the failure to protect claims.
After careful review of the record, we affirm for the reasons stated by the
district court in its orders dated January 31 and February 5, 2020. See 8th Cir. Rule
47B. In particular, like the district court we conclude that defendants did not
deliberately disregard a substantial risk of serious harm to Washington based on the
general negative reaction of the prison population to his successful litigation. We
decline to consider allegations and claims first raised by Washington on appeal.

-2-

Appellate Case: 20-1386

Page: 2

Date Filed: 10/02/2020 Entry ID: 4961766

UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
ST. JOSEPH DIVISION
ECCLESIASTICAL D. WASHINGTON,
a/k/a/ WILLIE SIMMONS,
Plaintiff,

)
)
)
)
)

)

vs.
BEN BROOKE, et al.,
Defendants.

Case No. 17-6139-CV-SJ-NKL-P

)
)
)
)

ORDER GRANTING DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT
AND DISMISSING CASE
This civil rights case, filed pursuant to 42 U.S.C. § 1983, follows Plaintiffs success in
Washington v. Denney, 14-6118-CV-C-NKL (Washington I). In Washington I, a jury awarded
Plaintiff damages based on its findings that Plaintiff suffers from asthma and that certain prisonofficial Defendants violated Plaintiffs rights under federal law by exposing him to tobacco smoke.
Additionally, in Washington I, the Court ordered post-judgment injunctive relief, banning the sale,
possession, and consumption of tobacco products in Missouri prisons.
Plaintiff filed this case pro se, claiming primarily that Defendants failed to protect him
from attack by inmates who were unhappy with the tobacco ban brought about by Washington I.
See Doc. 9 (order advising Plaintiff that he may not litigate in this case claims that were resolved
or that should have been addressed in Washington I), and Doc. 13 (order summarizing Plaintiffs
post-Washington / claims). The Court appointed counsel to represent Plaintiff, Doc. 17, who filed
a third amended complaint, Doc. 31. i

'Plaintiffs third amended complaint named as Defendants Missouri prison officials Ronda
Pash, Chris McBee, Terry Page, Ben Brooke (spelled Brook elsewhere in the record, see, e.g.,
Doc. 71, pp. 1, 4), Amy Parkhurst, Jaqueline Keesma, and John Does I and II. Doc. 31, p. 1.
Earlier, the Court dismissed Defendants Parkhurst, Keesama, and the John Does. Doc. 13, p. 2.
It does not appear that the third amended complaint was served on Parkhurst and Keesama, or that
the John Does were identified and served.

Case 5:17-cv-06139-NKL Document 73 Filed 01/31/20 Page 1 of 4

Defendants filed a motion to dismiss the third amended complaint, Doc. 32, which the
Court treated as a motion for summary judgment, Doc. 36. After notice to and briefing by the
parties, the Court dismissed all of Plaintiff s claims but one - that Defendants failed to protect him
from an attack by Inmate Charles Stagner on April 19, 2017. Doc. 43. The parties commenced
discovery on this remaining claim.
During discovery, appointed counsel for Plaintiff moved for leave to withdraw, stating that
“telephone and written communication have been extremely difficult since Mr, Washington’s
move out of Missouri” to a prison in Kansas that is approximately 165 miles from counsel’s office.
Doc. 55. The Court granted counsel leave to withdraw, Doc. 56, and denied without prejudice
Plaintiffs motion for replacement counsel, Doc. 60.
Pending before the Court is Defendants’ motion for summary judgment on the remaining
claim that they failed to protect Plaintiff from attack by Inmate Charles Stagner on April 19, 2017.
Doc. 70. The Court must grant this motion if there is no genuine issue as to any material fact and
Defendants are entitled to judgment as a matter of law. Federal Rule of Civil Procedure 56(a).
A prison official “violates the Eighth Amendment if he is deliberately indifferent to the
need to protect an inmate from a substantial risk of serious harm from other inmates.” Jackson v.
Everett, 140 F.3d 1149, 1151 (8th Cir. 1998). “A failure-to-protect claim has an objective
component, whether there was a substantial risk of harm to the inmate, and a subjective component,
whether the prison official was deliberately indifferent to that risk.” Curry v. Crist, 226 F.3d 974,
977 (8th Cir. 2000). To be liable, “the official must both be aware of facts from which the
inference could be drawn that a substantial risk of serious harm exists, and he must also draw the
inference.” Farmer v. Brennan, 511 U.S. 825, 837 (1994).
Defendants argue that they are entitled to summary judgment because, inter alia, they were
unaware that Inmate Stagner posed a danger to Plaintiff:
Washington must [produce] evidence sufficient to prove that Defendants
Brooke, Page, McBee, and Pash each recklessly disregarded a known,
excessive risk of serious harm from Mr. Stagner[.] He has not done so.
In fact, he only indicates in his Complaint and deposition that he disclosed
Mr. Stagner’s threat to harm him to one or two corrections officers shortly
before the incident occurred. At no point in his pleadings or deposition
does Plaintiff show that any Defendant was deliberately indifferent, much
less had any knowledge, of Mr. Stagner’s threat and subsequent assault
until after the incident occurred. Therefore, Plaintiff cannot show that

Case 5:17-cv-06139-NKL Document 73 Filed 01/31/20 Page 2 of 4

Defendants’ conduct in the particular circumstances violated the Eighth
Amendment.
Doc. 71, p. 5 (citations omitted) (underscore in original); see Doc. 71-1, pp. 28-31 (transcript of
Plaintiffs deposition testimony).
The Court ordered Plaintiff to file any suggestions in opposition to Defendants’ motion for
summary judgment by January 23, 2020. Doc. 72. As of the date of this Order, Plaintiff has
filed none.
The following chronology is distilled from the record as indicated:
•

April 12, 2017. Plaintiff received the favorable verdict in Washington I.
Doc. 31, p. 7, T[ 55 (third amended complaint).

•

April 13, 2017. An unidentified correctional officer advised Plaintiff that
“custody staff had received threats against [Plaintiffs] life related to
[Washington 7].” Id. at 57.

•

April 14, 2017. Plaintiff was kicked, punched, and hit in the head with a
television by his cellmate, Ricky McGluen. Id. at 8, *[[ 67. All Defendants
were made aware of this attack by April 16, 2017. Id. at 9, f 70.

•

April 16, 2017. Plaintiff was beaten by four inmates who used as weapons
bars of soap they had hidden inside socks. Id. at ^] 72. All Defendants were
made aware of this attack by April 19, 2017. Id. at ^ 77.

•

April 19, 2017. Plaintiff informed an unidentified correctional officer that he
had been threatened by Charles Stagner. Id. at 10, ^ 79. Later that afternoon,
Stagner hit Plaintiff in the face with his fist. Id. at U 81. This attack is the
basis for the remaining claim in this case. Following this attack, Plaintiff was
placed in protective custody. Doc. 41-4, p. 16 (Defendants’ Exhibit MDOC
0645; staff response to Plaintiffs grievance).

•

April 20, 2017. Plaintiff requested that he be released from protective custody,
stating: “I don’t even know the guy [Stagner].” Id. at 17 (Defendants’
Exhibit MDOC 0646; report of classification hearing).

Case 5:17-cv-06139-NKL Document 73 Filed 01/31/20 Page 3 of 4

The undisputed evidence contained within the chronology bolsters Defendants’ argument
that they were unaware that Stagner posed a danger to Plaintiff. The Court further finds that, as
to this sole remaining claim, there is no genuine issue as to any material fact and Defendants are
entitled to judgment as a matter of law. Given these findings, the Court need not address
Defendants’ argument on qualified immunity.
Therefore, Defendants’ motion for summary judgment (Doc. 70) is granted, and Plaintiffs
claims against Defendants Pash, McBee, Page, and Brooke are dismissed with prejudice. Plaintiff
is cautioned that federal law “makes prisoners responsible for appellate filing fees of $505.00] the
moment the prisoner . . . files an appeal.”

Henderson v. Norris, 129 F.3d 481, 483 (8th Cir.

1997) (citation and quotation marks omitted). The Clerk of the Court shall enter judgment
accordingly and dismiss this case.
So ORDERED.

/s/ Nanette K. Laughrev____________
NANETTE K. LAUGHREY
UNITED STATES DISTRICT JUDGE
Jefferson City, Missouri,
Dated: January 31, 2020

Case 5:17-cv-06139-NKL Document 73 Filed 01/31/20 Page 4 of 4

Additional material
from this filing is
available in the
Clerk's Office.

